No. 20-843

 

 

In THE

Supreme Court of the United States

NEW YORK STATE RIFLE & PISTOL ASSOCIATION, et al.,
Petitioners,

Vv.

KEVIN P. BRUEN, et ail.,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

BRIEF OF THE NATIONAL LEAGUE OF
CITIES, THE UNITED STATES CONFERENCE
OF MAYORS, THE INTERNATIONAL
CITY/COUNTY MANAGEMENT ASSOCIATION,
THE MAJOR CITIES CHIEFS ASSOCIATION,
THE NATIONAL POLICE FOUNDATION AND
THE NATIONAL ORGANIZATION OF BLACK
LAW ENFORCEMENT EXECUTIVES AS
AMICI CURIAE SUPPORTING RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,992 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 21, 2021.

 

Wilson-Epes Printing Co., Inc.
